fi

C@QCKLE

2311 Douglas Street Le ga ] Brie f s E-Mail Address:

Omaha, Nebraska 68102-1214

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-64
HEIDI C. LILLEY, KIA SINCLAIR, AND GINGER M. PERRIO,
Petitioners,
v.
NEW HAMPSHIRE,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 14th day of November, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE FOUNDATION FOR MORAL
LAW IN SUPPORT OF RESPONDENT in the above entitled case. All parties required to be served have been served by
Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JOHN A. EIDSMOE
FOUNDATION FOR MORAL LAW
One Dexter Avenue
Montgomery, AL 36104
eidsmoeja@juno.com
334-262-1245

Counsel for Amicus Curiae

Subscribed and sworn to before me this 14th day of November, 2019.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

‘
General Notary
State of Nebraska . C Clie Quduaw- ke Chk
My Commission Expires Nov 24, 2020 B

Notary Public Affiant 38982

 

 
Attorneys for Petitioners

Eric Alan Isaacson

Counsel of Record
Law Office of Eric Alan Isaacson
6580 Avenida Mirola
La Jolla, CA 92037-6231
858-263-9581
ericalanisaacson@icloud.com
Party name: Heidi Lilley, et al.

Attorneys for Respondent

Laura E. B. Lombardi
Counsel of Record

603-271-3650

laura.lombardi@doj.nh.gov

Daniel E. Will
603-271-1119
daniel.will@doj.nh.gov

Office of the New Hampshire Attorney General
New Hampshire Department of Justice

33 Capitol Street

Concord, NH 03301-6397

Party name: New Hampshire
